                                    SOCIAL SECURITY

MEMORANDUM

Date:   September 23, 2002                                                         Refer To:

To:     The Commissioner

From:   Inspector General


Subject: Social
              Security Administration’s Management of Congressional Inquiries
        (A-13-02-12011)


        The attached final report presents the results of our evaluation. Our objective was to
        assess the Social Security Administration’s management of congressional inquiries.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                        James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         SOCIAL SECURITY
        ADMINISTRATION’S
         MANAGEMENT OF
         CONGRESSIONAL
            INQUIRIES

  September 2002       A-13-02-12011




EVALUATION REPORT




                   .
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             Executive Summary
OBJECTIVE

Our objective was to assess the Social Security Administration’s (SSA) management of
congressional inquiries.

BACKGROUND

SSA receives numerous congressional inquiries that may be delivered to any one of the
Agency components (regional offices, program service centers, Headquarters
components, the Office of Hearings and Appeals, and field offices). Congressional
inquiries address such issues as the status of disability hearings and the quality of SSA
services. SSA receives inquiries by mail, electronic mail, fax, and/or telephone.

The Office of Communications (OCOMM) is responsible for the Agency’s national
public information/public affairs programs. As part of this responsibility, OCOMM
creates, develops, facilitates, implements, oversees, and evaluates all SSA
communications and public information/public affairs activities, both internally and
externally. In addition, the Office of Public Inquiries, which is part of OCOMM, creates,
maintains, and publishes policies and procedures for processing congressional
inquiries. The Office of Public Inquires also creates Agency-approved language, often
with subject-expert component input, on issues frequently repeated in congressional
inquiries and on sensitive subjects.

RESULTS OF REVIEW

We determined that SSA lacked an adequate national system of internal controls
related to its management of congressional inquiries. We found no Agency-wide
automated system for controlling, monitoring, and tracking inquiries. SSA could not
identify the total number of congressional inquiries it received; no component was
designated the responsibility of managing congressional inquiries nationwide; and
multiple components were not complying with Agency-wide policies and procedures
when responding to congressional inquiries.

SSA advised us that it is in the process of procuring software and support services to
implement a national system for controlling, monitoring and tracking correspondence.
Staff stated that, in 2000, an initiative began to replace the Commissioner’s
Correspondence System. The use of the Commissioner’s Correspondence System
was limited. After reviewing several options for obtaining broader management
information, Agency staff reported that, on February 15, 2002, SSA’s Commissioner
decided to expand this initiative to a nation-wide system.




SSA’s Management of Congressional Inquiries (A-13-02-12011)                              i
CONCLUSIONS AND RECOMMENDATIONS
SSA needs to improve its system of internal controls for managing congressional
inquiries. Because the Agency lacked adequate internal controls, it was not effectively
and efficiently managing the congressional inquiries it received. Unless SSA improves
its internal controls, inefficiencies will continue to impact the Agency’s responses to
Congress.

We recommend that SSA take the following corrective actions to improve its
management oversight of congressional inquiries.

1. Develop and implement an Agency-wide information system that incorporates
   current technology to control, monitor, and track all congressional inquiries.

2. Designate a single component to oversee the Agency-wide management of
   congressional inquiries.

3. Develop and implement a management control process that gives reasonable
   assurance that Agency congressional inquiry policies and procedures are followed.

AGENCY COMMENTS

SSA agreed with Recommendations 1 and 3. However, SSA disagreed with
Recommendation 2. SSA stated it is better served by sharing the responsibility for
overseeing the Agency-wide management of congressional inquiries. In addition, the
Agency provided other comments. The text of SSA’s comments is included in
Appendix D.

OIG RESPONSE
We reviewed the Agency’s formal comments and disagree with SSA concerning
Recommendation 2.

We agree that several Agency components play key roles in the management of its
congressional inquiries. However, to ensure that all components follow Agency-wide
procedures for responding to congressional inquiries, we continue to believe that a
single component be given general oversight responsibility. Once the nationwide
Assignment and Correspondence Tracking application is implemented, we will evaluate
the oversight of congressional inquiries.

The Agency also provided “other” comments. We agree, in part, with these comments
and have made the appropriate changes as applicable.




SSA’s Management of Congressional Inquiries (A-13-02-12011)                            ii
                                                               Table of Contents
                                                                                                                   Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

  SSA Lacked an Adequate System of Internal Controls...................................3

       No Automated Agency-Wide System for the Controlling, Monitoring,
       and Tracking Congressional Inquiries .............................................................3

       SSA Could not Determine the Total Number of Congressional
       Inquiries it Received ........................................................................................5

       No Designated Component for the Agency-Wide Management of
       Congressional Inquiries...................................................................................7

       Not All Components Adhered to Agency-Wide Policies and
       Procedures......................................................................................................9

CONCLUSIONS AND RECOMMENDATIONS .....................................................10

APPENDICES

APPENDIX A – Sampling Methodology

APPENDIX B – Methods Used to Control, Monitor, and Track Congressional Inquiries

APPENDIX C – Congressional Inquiries That Did Not Meet Due Dates

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                    Acronyms
AIMS    Administrative Instructions Manual System

CMM     Correspondence Management Manual

FY      Fiscal Year

OCOMM   Office of Communications

OSCAR   Optical System for Correspondence Analysis and Response

OPI     Office of Public Inquiries

POMS    Program Operations Manual System

SSA     Social Security Administration
                                                                    Introduction
OBJECTIVE

Our objective was to assess the Social Security Administration’s (SSA) management of
congressional inquiries.

BACKGROUND

SSA receives numerous congressional inquiries that may be delivered to any one of the
Agency components (regional offices, program service centers, Headquarters
components, the Office of Hearings and Appeals, and field offices). Congressional
inquiries address such issues as the status of disability hearings and the quality of SSA
services. SSA receives inquiries by mail, electronic mail, fax, and/or telephone.

The Office of Communications (OCOMM) is responsible for the Agency’s national
public information/public affairs programs. As part of this responsibility, OCOMM
creates, develops, facilitates, implements, oversees, and evaluates all SSA
communications and public information/public affairs activities, both internally and
externally. In addition, the Office of Public Inquiries (OPI), which is part of OCOMM,
creates, maintains, and publishes policies and procedures for processing congressional
          1
inquiries. OPI also creates Agency-approved language, often with subject-expert
component input, on issues frequently repeated in congressional inquiries and on
sensitive subjects.


SCOPE AND METHODOLOGY
To accomplish our objective, we:

·      Interviewed SSA personnel to obtain an understanding of the policies and
       procedures followed in responding to congressional inquiries.

·      Reviewed the Program Operations Manual System (POMS)2 and Administrative
       Instructions Manual System (AIMS)3



1
 These policies are published in SSA’s AIMS; Correspondence Management Manual (CMM), Chapter 1,
Administrative Management Communications, Instruction No. 03 Processing Congressional and Other
High Priority Correspondence; and in POMS, section DG 20017.001,SSA High Priority Correspondence.
2
    POMS, sections DG 20017.000 through DG 20017.006.
3
    AIMS, CMM, Chapter 01, Instructions No. 03.


SSA’s Management of Congressional Inquiries (A-13-02-12011)                                     1
·   Obtained from OPI’s Optical System for Correspondence Analysis and Response
    (OSCAR) system a list of 9,166 congressional inquiries and 308 special interest
    inquiries for the period October 1999 through June 2001. We randomly selected
    200 congressional inquiries and 30 special interest inquiries for review (see
    Appendix A for Sampling Methodology). To test the reliability of OSCAR’s
    automated data, we compared selected data elements with the original
    congressional inquiries. The test results indicated OSCAR’s automated data
    accurately reflected information contained in these inquiries.

·   Contacted regional offices, program service centers, Headquarters components,
    and the Office of Hearings and Appeals to obtain information to identify the total
    number of congressional inquiries received in Fiscal Year (FY) 2001 and the
    methods used to control, monitor, and track congressional inquiries.

We did not assess the accuracy or quality of the Agency responses to congressional
inquiries.

The entity reviewed was OPI within OCOMM. Although we obtained information from
various components, we performed an in-depth review and analysis of data received
from OPI. We performed our review from August 2001 through January 2002 in
accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.




SSA’s Management of Congressional Inquiries (A-13-02-12011)                              2
                                                 Results of Review
We determined that SSA lacked an adequate national system of internal controls
related to its management of congressional inquiries. We found no Agency-wide
automated system for controlling, monitoring, and tracking inquiries. SSA could not
identify the total number of congressional inquiries it received; no component was
designated the responsibility of managing congressional inquiries; and multiple
components were not complying with Agency-wide policies and procedures when
responding to congressional inquiries.

SSA advised us that it is in the process of procuring software and support services to
implement a national system for controlling, monitoring and tracking correspondence.
Staff stated that, in 2000, an initiative began to replace the Commissioner’s
Correspondence System. The use of the Commissioner’s Correspondence System
was limited. After reviewing several options for obtaining broader management
information, Agency staff reported that, on February 15, 2002, SSA’s Commissioner
decided to expand this initiative to a nation-wide system.

SSA Lacked an Adequate System of Internal Controls

Office of Management and Budget Circular A-123, Management Accountability and
Control Standards, states agencies must take systematic and proactive measures to
assess the adequacy of management controls in Federal programs and operations.
The Circular also states management needs to implement processes for planning,
organizing, directing, and controlling program operations. Management accountability
is the expectation that managers are responsible for the quality and timeliness of
program performance and assuring that programs are managed with integrity and in
compliance with applicable law. Additionally, information management is an issue of
continuing importance to all Federal agencies.

Office of Management and Budget Circular A-130, Management of Federal Information
Resources, states information technology “can improve the effectiveness and efficiency
of program delivery.” Further, it encourages Federal agencies to “seek opportunities to
improve the effectiveness and efficiency of government programs through the judicious
application of information technology.”

                              SSA’s management of congressional inquiries is
No Automated Agency-
                              decentralized within the Agency. Each SSA component
Wide System for
                              is responsible for managing its own activities related to
Controlling, Monitoring,
                              congressional inquiries. These components use several
and Tracking                  methods to control, monitor, and track the congressional
Congressional Inquiries       inquiries it receives. For example, they use paper
                              records, computerized data bases and spreadsheets, and
computer tracking application software.



SSA’s Management of Congressional Inquiries (A-13-02-12011)                              3
      Existing Technology Was Not Used to Control, Monitor, and Track
Congressional Inquiries. SSA did not fully use existing information technology to
manage its congressional inquiry workload. We found some Headquarters components
and the Office of Hearings and Appeals in Falls Church used OSCAR. Senior
management stated that efforts were underway to expand the use of OSCAR to
regional offices, program service centers, and other SSA Headquarters components.
However, the expansion efforts were stopped because of the Agency’s efforts to
procure software and support services to implement a national system to control,
monitor and track correspondence.

Additionally, we found regional offices, program service centers, and other SSA
Headquarters components used separate and unique systems or methods to control,
monitor, and track their congressional inquiry workload (see Appendix B). These
systems do not communicate with each other. Moreover, regional office senior
management advised us that field offices did not track their congressional inquiry
workloads.

      Congressional Inquiries Not Monitored and Tracked Through Completion.
We reviewed 200 congressional inquiries from 1 SSA Headquarters component to
determine whether the inquiries were controlled, monitored, and tracked through
completion. We found that all 200 congressional inquiries were controlled. However, of
those 200 congressional inquiries, 99 were referred to offices outside of this
component. Of those 99 congressional inquiries referred, 69 were not monitored and
tracked through completion. This component limited its monitoring and tracking to
congressional inquiries it received and completed or were completed by another SSA
Headquarters component. During our evaluation, management stated that a lack of
resources prohibited them from monitoring and tracking inquiries referred to other non-
SSA Headquarters’ components.

       Congressional Inquiries with Inaccurate Due Dates. Additionally, we
reviewed the OSCAR system used by two SSA components for controlling, monitoring,
and tracking congressional inquiries to determine whether system-generated due dates
for congressional inquiries were accurate. Of 200 congressional inquiries, 145 had
                    4
inappropriate days included when due dates were established, and 61 had due dates
on inappropriate days. For example, two congressional inquiries had due dates on
December 25, 2001. Projecting the results of our sample items to the population of
9,166 congressional inquiries, we estimate the OSCAR system did not exclude
inappropriate days when establishing due dates for approximately 6,691 (73 percent)
congressional inquiries and had inappropriate days as due dates for approximately
2,796 (31 percent) congressional inquiries. Senior management within this component
stated the system was experiencing problems recognizing appropriate calendar days,
and staff failed to update the OSCAR system with the holiday file, which would have
told the system the holidays to exclude.



4
    Inappropriate days are Saturdays, Sundays, and holidays.


SSA’s Management of Congressional Inquiries (A-13-02-12011)                          4
With no centralized system to comprehensively control, monitor, and track
congressional inquiries, the Agency cannot accurately determine the volume,
frequency, and status of its congressional inquiries workload and whether those
inquiries are being processed in a timely manner to meet established due dates.

On December 5, 2001 and February 27, 2002, we briefed SSA senior staff about the
results of our evaluation. We discussed the Agency’s lack of a centralized system to
comprehensively control, monitor, and track congressional inquiries.

After these discussions, SSA senior staff advised us of the Agency’s efforts to procure
software and support services for implementing a national system to control, monitor
and track correspondence. Upon arrival at SSA, the Commissioner found there was a
lack of national management information concerning the Agency’s correspondence. In
2000, an initiative began to replace the Commissioner’s Correspondence System.
However, the use of the Commissioner’s Correspondence System was limited. After
reviewing several options for obtaining broader management information, SSA’s
Commissioner decided on February 15, 2002, to expand this initiative. This decision
expanded the scope of the replacement project for the Commissioner’s
Correspondence System to include all SSA components.
                                                       5
The Agency issued a formal “request for information” to procure a comprehensive,
automated correspondence control system. The Agency intends to use this system to
assign work, process work electronically, track the status of assignments, and provide
management information reports relating to correspondence support. Since the system
is not operational, we cannot assess the effectiveness of the system at this time.

                                 SSA lacked the management controls to identify the
SSA Could Not Determine          number of congressional inquiries it received. During
the Total Number of              our review, we requested from OCOMM and OPI the
Congressional Inquiries it       total number of congressional inquiries the Agency
Received                         received in FY 2001. Neither office was able to provide
                                 the requested information since OCOMM and OPI are
only responsible for tracking the congressional inquiries they receive.

We tried to independently determine the total number of congressional inquiries SSA
received in FY 2001. Based on the data reported by various Agency components, we
                                                  6
estimate that SSA received approximately 80,000 congressional inquiries in FY 2001.
Regional offices and program service centers reported receiving over 55,000
congressional inquiries in FY 2001. Three Headquarters components7 reported
receiving 18,556 congressional inquiries. In addition, the Office of Hearings and
5
 Request for Information number SSA-RFI-02-0948, Commissioner’s Correspondence Control System,
May 1, 2002.
6
 Information on the number of congressional inquiries received in FY 2001 was reported by SSA
components; we did not independently validate the accuracy of this information.
7
    The Offices of the Commissioner, Congressional and Legislative Affairs, and Communications.


SSA’s Management of Congressional Inquiries (A-13-02-12011)                                       5
Appeals reported receiving 6,540 congressional inquiries. Although field offices receive
congressional inquiries, we were unable to obtain data regarding the number of
congressional inquiries they received in FY 2001. Because there was no management
oversight, the Agency was not able to accurately determine the volume of its
congressional inquiries workload and whether those inquiries were being processed to
meet established due dates. Figures 1 and 2 show the reported number of
congressional inquiries received by SSA components.


     Figure 1. FY 2001 Congressional Inquiries Received by SSA Regional Offices
                           and Program Service Centers

                                                     Unavailable
                                                                               1,808

       913                                                                                         12,872
                           X
                                                                                                               I
                                                                                                                       1,200
                                                                           V
                                             VIII                                                         II
                             IX
      8,000                                              VII                      In
                                                                                       d ia
                                                                                                    III
                                                                                              na                   22,166




                                                                                                               8,001
                                                       VI                            IV


                                                                               120

                                                               Unavailable

*These figures were estimates based on information provided by SSA personnel for regional offices and program service centers.




SSA’s Management of Congressional Inquiries (A-13-02-12011)                                                                    6
      Figure 2. FY 2001 Congressional Inquiries Received at SSA Headquarters

                                                     126


                                                                                          4,782
                                                       OC           OCOMM
                      6,540                                             ODISP            Unavailable
                                        OHA
                                                                        OFAM
                                                                                         N/A
                                                                        OHR
                                                                        OCO
                                                                                                    Unavailable

                                                                                         Unavailable


                                                      OLCA
                                                                        13,648

  *SSA components represented are the Offices of the Commissioner; Communications; Disability Income and Security
  Programs; Finance, Assessment and Management; Human Resources; Central Operations; Legislative and Congressional
  Affairs; and Hearings and Appeals.


                                   Within SSA, OCOMM is responsible for the Agency’s
 No Designated                     national public information/public affairs programs. OPI,
 Component for the                 which is located within OCOMM, is responsible for
 Agency-Wide                       developing Agency-wide policies, procedures, and
 Management of                     approved language for responding to congressional
 Congressional Inquiries           inquiries. OPI management stated that, in the early to
                                   mid-1980’s, their office manually tracked the number of
congressional inquiries received in the regional offices (not field offices), program
service centers, and Headquarters components. Additionally, OPI reports it performed
a quality appraisal of responses to congressionals and monitored and tracked regional
offices’ activities related to congressional inquiries. However, we found no component
specifically designated the responsibility of managing congressional inquiries Agency-
wide.

Without a designated component responsible for managing congressional inquiries,
SSA cannot effectively and efficiently manage its congressional inquiry workload. For
example, SSA cannot determine whether referrals to other components within SSA are
being made timely. We reviewed 200 congressional inquiries from 1 SSA
Headquarters’ component. Of these, 99 inquiries were referred to another Agency
component for additional information or completion of a response. Congressional




SSA’s Management of Congressional Inquiries (A-13-02-12011)                                                          7
inquiries within this component were being held for an average of 9 workdays8 before
referrals were initiated. A congressional inquiry was received on March 2, 2000 but was
not referred to another Agency component until April 18, 2000. OPI management
advises that many referrals are made within 24 hours of receipt, but others might not be
referred until background on a particular case is developed and a referral is necessary.

SSA senior management further stated the delay in referring some congressional
inquiries from this component may be completely appropriate because of a “lengthy
development” process that led to the referral. Additionally, a referral may contain
significant information that may serve as a final response to one issue; however, a dual
issue may exist that requires another component’s input before the Agency’s final
response is completed. These delays have not been independently verified.

Moreover, SSA management stated that, from April 1, 2002 through June 30, 2002, this
component held congressional inquiries an average of about 6 workdays before
referrals were initiated. The average of about 6 workdays has not been independently
verified.

Table 1 shows the actual length of time the 99 congressional inquiries were held within
the Headquarters component before referrals were made to other Agency components.
Fifty-two percent of the congressional inquiries were held more than 5 working days
before referrals were initiated. Senior management stated that the constant workload
sometimes interferes with the movement of referrals.

               Table 1. Sampled Congressional Inquiries Referred from
                          October 1999 through June 2001

                                            Total
Days Congressional                         Number
Inquiries Were Held                     Congressional                       Percent
Before Referral Was Initiated             Inquiries                         Of Total

1 Day                                             9                            9.1
2 to 5 Days                                      39                           39.4
6 to 10 Days                                     17                           17.2
11 to 20 Days                                    20                           20.2     52
21 Days or More                                  14                           14.1
Totals                                           99                           100




8
 We used the day after receipt of the congressional inquiry and the date the inquiry was referred to
another SSA component to determine the total numbers of days held within a given component (excluding
weekends and holidays).


SSA’s Management of Congressional Inquiries (A-13-02-12011)                                        8
Additionally, SSA could not determine whether interim information,9 when required, was
provided in a timely manner. AIMS, CMM, Chapter 01, Instruction No. 03, states that, if
final information is unavailable when due, interim information must be made. The SSA
Headquarters component we reviewed did not always provide interim responses when
established due dates would not be met. Our analysis showed that, of 200
congressional inquiries reviewed, 41 did not meet the established due date, and no
interim information was provided to the requestor (see Appendix C).

When an office does not provide the interim response, the requestor does not know the
status of their inquiry. Senior management for the Headquarters component stated
they depend on personnel in other components to locate records, provide assistance,
and/or information related to the congressional inquiry before interim information can be
provided to the congressional requestor.

                                We found that several SSA components did not adhere
Not All Components              to Agency-wide policies and procedures when responding
Adhered to Agency-wide          to congressional inquiries. Four regional offices, a
Policies and Procedures         program service center, and the Office of Hearings and
                                Appeals reported that they did not adhere to Agency-wide
                                policies or procedures when responding to congressional
inquiries. Specifically, these components did not use the appropriate POMS10 or
      11
AIMS when receiving, controlling, and responding to congressional inquiries.

Generally, these SSA components used either no criteria or other guidelines for
responding to congressional inquiries. For example, one component used orally
communicated policy created within the office as criteria for responding to
congressional inquiries. By not adhering to Agency policies and procedures for
responding to congressional inquiries, components may be responding to inquiries in an
unacceptable manner. Also, SSA cannot ensure the consistency and quality of
responses it provides to congressional requestors.




9
  Interim information is provided to keep the inquirer advised of the status of the inquiry when final
information is not readily available.
10
     POMS, Sections DG 20017.000 through DG 20017.006.
11
     AIMS, CMM, Chapter 01, Instruction No. 03.


SSA’s Management of Congressional Inquiries (A-13-02-12011)                                              9
                                                         Conclusions and
                                                        Recommendations
SSA needs to improve its system of internal controls for managing congressional
inquiries. Because the Agency lacked adequate internal controls, it was not effectively
and efficiently managing the congressional inquiries it received. Unless SSA improves
its internal controls, inefficiencies will continue to impact the Agency‘s responses to
Congress.

We recommend that SSA take the following corrective actions to improve the
management of its congressional inquiries.

1. Develop and implement an Agency-wide information system that incorporates
   current technology to control, monitor, and track all congressional inquiries.

2. Designate a single component to oversee the Agency-wide management of
   congressional inquiries.

3. Develop and implement a management control process that gives reasonable
   assurance that Agency congressional inquiry policies and procedures are followed.

AGENCY COMMENTS

SSA agreed with Recommendations 1 and 3. However, SSA disagreed with
Recommendation 2. SSA stated it is better served by sharing the responsibility for
overseeing the Agency-wide management of congressional inquiries. In addition, the
Agency provided other comments. The text of SSA’s comments is included in
Appendix D.

OIG RESPONSE
We reviewed the Agency’s formal comments and disagree with SSA concerning
Recommendation 2. The Agency also provided “other” comments. We agree, in part,
with these comments and have made the appropriate changes as applicable.

We believe the Agency’s management of its congressional inquiries presents an
opportunity for several components to play key roles. However, there should be a
single component designated to oversee the Agency-wide management of
congressional inquiries. As discussed in our report, the Agency lacks an adequate
national system of internal controls related to its management of congressional
inquiries. For example, we found that several SSA components did not adhere to
Agency-wide policies and procedures when responding to congressional inquiries.
Once the nationwide Assignment and Correspondence Tracking application is
implemented, we may reassess the oversight of congressional inquiries.


SSA’s Management of Congressional Inquiries (A-13-02-12011)                           10
                                           Appendices




SSA’s Management of Congressional Inquiries (A-13-02-12011)
                                                                            Appendix A

Sampling Methodology
We obtained from the Social Security Administration’s Office of Public Inquiries’ Optical
System for Correspondence Analysis and Response system a list of
9,166 congressional inquiries and 308 special interest inquiries for the period
October 1999 through June 2001. We used a random sample generator to select
congressional inquiries for review. We selected and reviewed 200 of the
9,166 congressional inquiries and 30 of the 308 special interest inquiries for this period.

We reviewed each selected congressional inquiry to determine whether congressional
inquiries were completed in a timely and efficient manner. Specifically, we determined
whether

·      congressional inquiries were controlled, monitored, and tracked through
       completion;

·      congressional inquiries were referred and the number of congressional inquiries
       referred; and

·      due dates for congressional inquiries were accurate and whether due dates were
       being met.

                                    Sample Results and Projections

    Population size                                                                  9,166
    Sample size                                                                        200
                               Attribute Projections
    Sampled cases with Inappropriate Days1 Included When Establishing                    146
    Due Dates
    Projection of cases with Inappropriate Days Included When Establishing           6,691
    Due Dates
    Projection lower limit                                                           6,178
    Projection upper limit                                                           7,157

    Sampled cases with Inappropriate Days as Due Dates                                  61
    Projection of cases with Inappropriate Days as Due Dates                         2,796
    Projection lower limit                                                           2,309
    Projection upper limit                                                           3,322
Note: All projections were calculated at the 90-percent confidence level.




1
    Inappropriate days are Saturdays, Sundays, and holidays.

SSA’s Management of Congressional Inquiries (A-13-02-12011)
                                                                                                               Appendix B

Methods Used to Control, Monitor, and
Track Congressional Inquiries
We found that regional offices, program service centers, the Social Security
Administration Headquarters components, and the Office of Hearings and Appeals
used separate and unique systems or methods to control, monitor, and track their
congressional inquiry workload. This chart shows the different systems or methods
used.




                                                                              Spreadsheet
                                                     Electronic
                                          Computer




                                                                  Microsoft
                                                                  Outlook
                                           System




                                                                                                Database


                                                                                                                Manual
                                                        Log
       SSA Components




                                                                                                                         None
                                                                                                                 Log
   Headquarters Components
Office of the Commissioner                       X
Office of Communications                         X
Office of Disability and Income                  X
Security Programs
Office of Human Resources                        X
Office of Central Operations                                            X
Office of Legislation and Congressional
Affairs                                                    X
Office of Hearings and Appeals                   X                                                         X
             Regional Offices
Region I                                                                                                                        X
Region II                                                                                                  X
Region III                                                                                  X
Region IV                                                                                   X
Region V                                         X
Region VI                                        X
Region VII                                                                                                 X
Region VIII                                      X
Region IX                                                  X
Region X                                                                                                   X
     Program Service Centers
Great Lakes                                      X
Mid-America                                                                                                X
Mid-Atlantic                                                                                                        X
North Eastern                                                                                              X
South Eastern                                                                               X
Western                                                    X



SSA’s Management of Congressional Inquiries (A-13-02-12011)
                                                                      Appendix C

Congressional Inquiries That Did Not Meet
Due Dates
Our analysis showed that interim information, as required, was not always provided to
congressional requestor when established due dates were not going to be met. This
chart shows the 41 congressional inquiries that did not meet the established due date,
and no interim information was provided to the requestor.

              Control Number      Receipt Date     OSCAR Due Date     Response Date
          1      OB3706                 10/12/99            11/7/99             12/14/99
          2      OB4996                 10/21/99           11/13/99              12/7/99
          3      OB6238                 10/26/99           11/19/99             11/29/99
          4      OC3618                 11/17/99           12/20/99              1/19/00
          5      OC5978                  12/3/99           12/28/99               3/6/00
          6      OC8056                 12/14/99            1/30/00               2/1/00
          7      OD2584                   1/6/00            1/24/00               3/9/00
          8      OD2615                   1/4/00            1/31/00               2/3/00
          9      OD2670                   1/7/00            1/30/00               2/8/00
         10      OD7764                  1/27/00            2/20/00               3/9/00
         11      OD7769                  1/27/00            2/20/00              3/14/00
         12      OE7512                   3/1/00            3/19/00              4/10/00
         13      OE7719                   3/6/00            3/24/00              4/27/00
         14      OE7730                   3/6/00            3/24/00              4/27/00
         15      OE8533                  2/25/00            3/14/00              4/10/00
         16      OE9796                  3/13/00            3/31/00               4/4/00
         17      OF3504                  4/10/00            4/28/00               5/5/00
         18      OF9336                   4/4/00            4/22/00               5/4/00
         19      OG8501                  6/13/00             7/1/00              7/11/00
         20      OH3824                   7/3/00            7/20/00              7/21/00
         21      OH7119                  7/21/00            8/12/00              8/16/00
         22      OH9096                  7/25/00            8/12/00              8/14/00
         23      OJ2156                  9/19/00            10/7/00              1/19/01
         24      OJ7193                  10/5/00           10/23/00             10/25/00
         25      OL7247                  1/19/01             2/6/01              2/26/01
         26      OM0277                   2/9/01            2/27/01              3/20/01
         27      OM1311                  2/14/01            3/05/01               3/6/01
         28      OM4101                  3/13/01            3/31/01               4/9/01
         29      OM4128                  3/15/01             4/2/01              4/12/01
         30      OM4210                  3/13/01            3/31/01              5/21/01




SSA’s Management of Congressional Inquiries (A-13-02-12011)                        C-1
             Control Number      Receipt Date     OSCAR Due Date        Response Date
        31       OM4260                 3/14/01                4/1/01              4/10/01
        32       OM4616                 3/14/01                4/1/01              4/10/01
        33       OM6476                 3/14/01                4/1/01              4/19/01
        34       OM6483                 3/14/01                4/1/01              4/19/01
        35       OM6511                  3/2/01               3/20/01               5/8/01
        36       OM6717                  4/3/01               4/25/01              5/22/01
        37       OM8256                 4/17/01                5/5/01              5/14/01
        38       OM9395                 4/24/01               5/12/01              5/15/01
        39       ON0254                  5/1/01               5/19/01              5/21/01
        40       ON3054                 5/11/01               5/29/01               6/6/01
        41       ON4830                 6/12/01                7/9/01              7/16/01




SSA’s Management of Congressional Inquiries (A-13-02-12011)                             C-2
                                                              Appendix D

Agency Comments




SSA’s Management of Congressional Inquiries (A-13-02-12011)
                                      SOCIAL SECURITY

MEMORANDUM                                                                       31227-24-807


Date:     September 9, 2002                                               Refer To:   S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry W. Dye     /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Evaluation Report, “Social Security
:         Administration’s Management of Congressional Inquiries” (A-13-02-12011)—
          INFORMATION


          We appreciate OIG’s efforts in conducting this review. Our comments on the report
          content and recommendations are attached. Staff questions can be referred to Odessa
          J. Woods on extension 50378.

          Attachment:
          Proposed Comments




          SSA’s Management of Congressional Inquiries (A-13-02-12011)                         D-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT EVALUATION REPORT,
"SOCIAL SECURITY ADMINISTRATION’S MANAGEMENT OF CONGRESSIONAL
INQUIRIES” (A-13-02-12001)

Thank you for the opportunity to comment on the draft report.

In the spring of 2000, the Office of the Commissioner began efforts to replace the
Commissioner’s Correspondence System (CCS) with more current technology, which would
enhance the Agency’s ability to track correspondence processing as well as to facilitate document
management. Companies with products in this area were asked to submit information on
systems and approaches to meet this need. After extensive research, it was determined that a
commercial document management and workflow application, supplemented to address agency-
specific functions, would best address the requirements. Procurement efforts began in the spring
of 2001. Recognizing the potential for broad use of the solution, the solicitation was structured
to provide the Agency with the flexibility to build an infrastructure that would allow for
enterprise-wide expansion to meet current or future requirements.

Recommendation 1

Develop and implement an Agency-wide information system that incorporates current technology
to control, monitor, and track all congressional inquiries.

SSA Comment

We agree. We are pleased to note that on August 13, 2002, the Agency awarded two Blanket
Purchase Agreements (BPA) to facilitate this activity. The first is for software licenses and
maintenance for the Open Text Livelink product and related modules. This commercial
document management and workflow software product will form the core of our nationwide
Assignment and Correspondence Tracking (ACT) application. The second BPA was awarded for
the services and support required to design, develop and implement ACT. Orders have been
placed against both BPAs and work has begun.

ACT will be used to replace the current CCS being used for correspondence addressed to the
Commissioner and Deputy Commissioner, and for related assignments. In addition, the
application will be implemented by all SSA organizations to track high-profile correspondence,
which includes congressional inquiries. The ACT system will track entries by type, sender and
addressee, subject matter, due dates, etc. This is expected to enable the Agency to monitor
responsiveness to congressional inquiries nationwide, as well as to ensure the consistency of
responses by making similar inquiries and responses available for review. Trends in subject
matter areas will be monitored to further support agency initiatives and to identify policy issues
and concerns in a timely manner.




SSA’s Management of Congressional Inquiries (A-13-02-12011)                                     D-2
Recommendation 2

Designate a single component to oversee the Agency wide management of congressional
inquiries.

SSA Comment

We disagree. While the responsibility for overseeing the Agency-wide management of
congressional inquiries could be given solely to one component, we have determined that the
Agency is better served with a shared responsibility approach. All agency components play key
roles in responding to congressional inquiries. Each Deputy Commissioner has a strong interest
in ensuring that prompt and accurate information is provided. The Office of the Commissioner’s
Executive Operations staff has responsibility for all correspondence from the Commissioner or
Deputy Commissioner. The Office of Legislation and Congressional Affairs is the primary
Agency point of contact for Congress. The Office of Communications handles most of the
congressional correspondence coming into headquarters and has responsibility for certain
policies and procedures related to its handling. As the new system is developed, it will facilitate
activities to manage the workloads contained in it. Decisions regarding the specific roles and
responsibilities will be made as these functions are more fully identified and developed.

Recommendation 3

Develop and implement a management control process that gives reasonable assurance that
Agency congressional inquiry policies and procedures are followed.

SSA Comment

We agree. The ability of ACT to provide nationwide information will be crucial to ensuring that
policy and procedures are being followed. We have taken advantage of the opportunity provided
by this project to revise, update and synchronize our policies and procedures. In addition, the
training that will be conducted on ACT nationwide will be preceded by an Interactive Video
Training session on the agency policies and procedures. This policy training will establish a
consistent understanding of our agency policies throughout all organizations. The ACT
functionality will assist in the implementation of these policies and procedures.




SSA’s Management of Congressional Inquiries (A-13-02-12011)                                   D-3
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Shirley E. Todd, Director, General Management Audit Division
    (410) 966-9365

    Brian Karpe, Team Leader, General Management
    (410) 966-1029

Acknowledgments

In addition to those named above:

    Tracey Edwards, Auditor-In-Charge

    Steve Weal, Senior Auditor

    Greylen High, Senior Auditor

    Brennan Kraje, Statistician

    Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-02-12011.
                        DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                             Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                        Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
